TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2007 Statutory Audit of
                      Compliance With Notifying Taxpayers
                       of Their Rights When Requested to
                         Extend the Assessment Statute



                                         August 31, 2007

                              Reference Number: 2007-40-167




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    August 31, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Fiscal Year 2007 Statutory Audit of Compliance
                                With Notifying Taxpayers of Their Rights When Requested to Extend
                                the Assessment Statute (Audit # 200740011)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was complying with Internal Revenue Code Section 6501(c)(4)(B), which requires the IRS
 to provide notice to taxpayers of their rights to decline to extend the assessment statute of
 limitations or to request that any extension be limited to specific issues or a specific period of
 time. The Treasury Inspector General for Tax Administration is required to provide information
 annually regarding the IRS’ compliance with this provision.1

 Impact on the Taxpayer
 The IRS is required to notify taxpayers of their rights when requesting an extension of the statute
 of limitations for assessing additional taxes and penalties. In passing this law, Congress
 expressed concern that taxpayers were not being advised adequately of their rights to refuse to
 extend the statute of limitations or to request that a statute extension be limited to specific issues
 or a specific period of time. Based on the results of our sample, we believe the IRS is generally
 complying with the intent of the statute. However, there were still some instances in which IRS
 employees did not document whether taxpayers and their representatives were advised of these
 rights.




 1
     Internal Revenue Code Section 7803(d)(1)(C).
                      Fiscal Year 2007 Statutory Audit of Compliance With
                     Notifying Taxpayers of Their Rights When Requested to
                                 Extend the Assessment Statute



Synopsis
There was not always documentation in the related case files to show that taxpayers were
advised of their rights regarding assessment statute extensions. In our sample of 203 tax returns,
23 (11.3 percent) of the related case files reviewed did not contain adequate documentation to
support that the taxpayers had been advised of their rights regarding assessment statute
extensions. In addition, from this same sample, we reviewed 126 case files with authorizations
for third-party representation and found 14 (11.1 percent) did not contain documentation that
representatives were separately notified of the written communications advising taxpayers of
their rights.

Recommendation
We recommended the Deputy Commissioner for Services and Enforcement ensure a
memorandum is issued reminding IRS employees of their responsibility to document the
assessment statute extension notification of rights in every taxpayer case file when dealing with
taxpayer representatives.

Response
IRS management agreed with our recommendation. They will issue a memorandum to remind
examiners that they should provide to both the taxpayer and the authorized representative copies
of all notices and other written communications, unless the taxpayer specifies otherwise, and the
case file is to be documented accordingly.
The IRS continues to disagree that it has a responsibility to notify the taxpayer in addition to the
taxpayer’s authorized representative when informing the parties of the taxpayer’s rights
regarding the assessment statute extension. Therefore, the IRS disagrees with that portion of our
outcome measure. The IRS believes (1) the law governing principals and agents provides that
the authorized representative acts for the principal based on the authority vested in the agent by
the principal should apply and (2) it has fulfilled its responsibility to the taxpayer by notifying
the taxpayer’s representative. Management’s complete response to the draft report is included as
Appendix VII.

Office of Audit Comment
We continue to believe the IRS should send notification to the taxpayer even if the taxpayer has
an authorized representative. The IRS’ own internal procedures and Practice Before the IRS and
Power of Attorney (Publication 947) require that notification be made to both the taxpayer and
the taxpayer’s representative. While a taxpayer may permit an authorized representative to

                                                                                                    2
                      Fiscal Year 2007 Statutory Audit of Compliance With
                     Notifying Taxpayers of Their Rights When Requested to
                                 Extend the Assessment Statute


receive IRS notifications in addition to the notice required to be provided to the taxpayer, the
taxpayer may not designate that the representative receive notifications instead of the taxpayer.
Consequently, we believe our outcome measure is valid.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                    3
                              Fiscal Year 2007 Statutory Audit of Compliance With
                             Notifying Taxpayers of Their Rights When Requested to
                                         Extend the Assessment Statute




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Some Case Files Did Not Have Documentation That Taxpayers Were
          Advised of Their Rights Regarding Assessment Statute Extensions............Page 5
          Some Case Files Did Not Have Documentation That Taxpayers’
          Representatives Were Provided the Required Copies of Notices.................Page 8
                    Recommendation 1:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Prior Audit Reports ...............................................................Page 16
          Appendix VI – Case Review Results by Division ........................................Page 17
          Appendix VII – Management’s Response to the Draft Report.....................Page 19
          Fiscal Year 2007 Statutory Audit of Compliance With
         Notifying Taxpayers of Their Rights When Requested to
                     Extend the Assessment Statute




                    Abbreviations

I.R.C.        Internal Revenue Code
IRS           Internal Revenue Service
RRA 98        IRS Restructuring and Reform Act of 1998
                          Fiscal Year 2007 Statutory Audit of Compliance With
                         Notifying Taxpayers of Their Rights When Requested to
                                     Extend the Assessment Statute




                                             Background

The Internal Revenue Service (IRS) is required by IRS Restructuring and Reform Act
of 1998 (RRA 98)1 Section (§) 3461(b)(2)(B) and Internal Revenue Code (I.R.C.)
§ 6501(c)(4)(B) to advise taxpayers of their rights when requesting an extension of the statute of
limitations on the assessment of additional tax and penalties. If the IRS examines a tax return
and determines there is additional tax due, the assessment must generally be processed within
3 years from the date the return was due or from the date on which the return was actually filed,
whichever is later. This 3-year assessment statute of limitations normally cannot be extended
without the taxpayer’s written consent.2 In the event of multiple extension requests, the IRS
must notify the taxpayer of his or her rights on each occasion when the taxpayer is requested to
consent to an extension. In addition, RRA 98 § 3201(d) requires the IRS, wherever practicable,
to send any notice relating to a jointly filed tax return separately to each individual filing the
joint return. Congress passed these statutory requirements over concern that taxpayers were not
being adequately advised of their rights to refuse to extend the statute of limitations or to request
that a statute extension be limited to specific issues or a specific period of time.
To extend the assessment statute, the IRS asks the
taxpayer to sign a statute extension agreement form                  A consent extends the
(i.e., a consent).3 There are two basic types of consents:           assessment statute of
fixed-date and open-ended. Once signed, the fixed-date           limitations to either a specific
                                                                date or for an indefinite period.
consent sets a specific expiration date on the statute, while
the open-ended consent extends the statute for an infinite
period of time. The statute is normally extended for a period that both the IRS and the taxpayer
agree is reasonable to complete the examination. A consent that applies only to certain
examination issues can also be negotiated.
A taxpayer may agree to grant the IRS an extension of the statute of limitations because it is
determined to be in the taxpayer’s best interest. For example:



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  There are some exceptions to the 3-year statute of limitations. For example, I.R.C. § 6501(c)(1) extends the
assessment statute indefinitely when false or fraudulent tax returns are filed.
3
  IRS employees that most often request assessment statute extensions are examiners in the Examination functions
of the operating divisions and appeals officers in the Office of Appeals. The IRS uses different types of consents
depending on the type of tax involved. Consent to Extend the Time to Assess Tax (Form 872) is used for income
taxes and Consent to Extend the Time to Assess Employment Taxes (Form SS-10) is used for employment taxes.
Form 872 (Rev. 12-2004) is the most commonly used consent form.
                                                                                                            Page 1
                          Fiscal Year 2007 Statutory Audit of Compliance With
                         Notifying Taxpayers of Their Rights When Requested to
                                     Extend the Assessment Statute



    •   To pursue additional examination issues that could offset a proposed tax or that might
        allow for a tax refund.
    •   Because, if the time remaining before the statute expires is too short, the IRS may have to
        prematurely stop the examination process and issue a notice of deficiency. This would
        limit the time the taxpayer has available to follow the normal appeal process before a
        petition must be filed with the United States Tax Court.
There may also be certain circumstances in which a taxpayer decides to limit or refuse to extend
the assessment statute of limitations. For example, this may happen if the taxpayer does not
want to provide the IRS more time to consider additional examination issues or the taxpayer does
not want to allow the IRS the opportunity to further develop examination issues already under
consideration after the normal statute period has expired.
RRA 98 § 3461(b)(2)(B) required the IRS to “. . . notify the taxpayer of the taxpayer’s right to
refuse to extend the period of limitations, or to limit such extension to particular issues or to a
particular period of time, on each occasion when the taxpayer is requested to provide such
consent.” To implement this statutory requirement, the Internal Revenue Manual4 and other
internal procedures direct IRS employees to provide the taxpayer with a Request to Extend
                                     Assessment Statute (Letter 907) or Letter Transmitting
                                     Consent Extending Period of Limitation (Letter 967) (along
                                     with a copy of Extending the Tax Assessment Period
                                     [Publication 1035] and Consent to Extend the Time to Assess
                                     Tax [Form 872] or Consent to Extend the Time to Assess
                                     Employment Taxes [Form SS-10]5 as enclosures) and to
                                     document on the case activity record as to whether the
                                     taxpayer was notified of his or her rights each and every time
                                     the IRS requested an assessment statute extension.
                                     RRA 98 § 3201(d) specifically required that the
                                     IRS “. . . shall, wherever practicable, send any notice relating
                                     to a joint return . . . separately to each individual filing the
                                     joint return.” As such, the Internal Revenue Manual requires
                                     that each individual filing the joint tax return be provided a
  Publication 1035 (Rev.05-2003)
  Catalog Number 46890Q
                                     separate package including Letter 907 or 967 and the
                                     attachments. Even though the IRS had formalized internal
procedures to document compliance with the statutory requirements, our reviews have continued
to identify instances where documentation was not adequate to support that taxpayers were
advised of their rights.


4
  The Internal Revenue Manual contains policy, direction, and delegations of authority necessary to carry out IRS
responsibilities to administer tax law and other legal provisions.
5
  Form 872 is used for income taxes; Form SS-10 is used for employment taxes.
                                                                                                            Page 2
                        Fiscal Year 2007 Statutory Audit of Compliance With
                       Notifying Taxpayers of Their Rights When Requested to
                                   Extend the Assessment Statute



In 2005, the IRS deployed revised versions of Forms 872 and SS-10 to include a statement
informing taxpayers of their rights regarding assessment statute extensions, as required under
RRA 98 § 3461(b)(2)(B) and I.R.C. § 6501(c)(4)(B), and to provide information on
Publication 1035. In addition, the revised consent form included a statement for the taxpayers’
representatives to sign, confirming they were notified of the taxpayers’ rights regarding
assessment statute extensions and that the taxpayers were also advised of their rights.
                                Figure 1: Excerpt From Form 872




Note: The wording in the Form SS-10 is consistent with that shown in Form 872.
Source: The IRS.

We considered the revised consent forms adequate evidence that taxpayers were notified of their
rights when the taxpayers signed the forms. In our Fiscal Year 2006 report, we noted the use of
the revised forms made a difference in documenting that taxpayers were advised of their rights
when the consent forms were signed by the taxpayers. However, we still noted taxpayers on
joint tax returns were not always being provided separate notification packages informing them
of their rights under the statute; moreover, when representatives signed the consents,
documentation was not adequate, as described above, to show the taxpayers were directly
notified of their rights.
In September 2005, the Director, Examination, Small Business/Self-Employed Division, advised
IRS Examination function executives that the requirement to provide or mail a Letter 907 or 967,
Publication 1035, and consent form separately to each spouse filing a joint tax return was no
longer required when it is determined that both spouses are residing at the same address. When
this is the case, the examiner will send one complete packet of information, addressed to both
spouses at the common address, and document such in the case activity record. If the taxpayers
filing a joint tax return do not appear to be residing at the same address, separate notifications

                                                                                           Page 3
                          Fiscal Year 2007 Statutory Audit of Compliance With
                         Notifying Taxpayers of Their Rights When Requested to
                                     Extend the Assessment Statute



must be provided. The IRS justified this change based on application of the new consent form,
which contains the notice of rights to the taxpayer. Because the signatures of both spouses must
be obtained to have a valid consent, the IRS believed the signatures on the new consent form
provided reasonable assurance that both spouses received the notice of rights; hence, meeting the
“wherever practicable” exception allowed under RRA 98 § 3201(d).
In prior audits, we took exception to cases in which taxpayers filing a joint tax return were not
separately notified of their rights regarding the assessment statute extension.6 However, we
believe the IRS’ policy revision is a reasonable interpretation that meets the intent of the statute.
Because Congress’ intent for requiring separate notification was merely to increase the
likelihood that separated or divorced spouses received notice of their rights, it would be
reasonable for the IRS to send only one notice to taxpayers who reside together but separate
notices to taxpayers who reside apart.
Also, in response to our Fiscal Year 2006 report, the IRS disagreed that, when a representative is
notified of the taxpayer’s rights regarding statute extensions, the taxpayer(s) must also be
separately notified. The IRS believed providing notice to the taxpayer’s authorized
representative constitutes compliance with its statutory requirement. However, in reading
RRA 98, the associated regulations, and required IRS procedures, we concluded the taxpayer still
must be individually notified and the contact documented in the case file.
The Treasury Inspector General for Tax Administration is required by RRA 987 to provide
information annually regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B). This report
presents the results of our eighth annual review of the IRS’ compliance with the statute extension
provisions of the law.8
This review was performed at the Office of Appeals Headquarters, Large and Mid-Size Business
Division Headquarters, Small Business/Self-Employed Division Headquarters, and Tax Exempt
and Government Entities Division Headquarters in Washington, D.C., during the period
September 2006 through May 2007. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




6
  In our Fiscal Year 2006 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested
to Extend the Assessment Statute (Reference Number 2006-40-163, dated September 21, 2006), we reported
15 cases in which taxpayers filed joint returns and there was not sufficient evidence to show both taxpayers were
separately notified of their rights.
7
  I.R.C. § 7803(d)(1)(C).
8
  See Appendix V for a complete list of prior audits on this subject.
                                                                                                          Page 4
                           Fiscal Year 2007 Statutory Audit of Compliance With
                          Notifying Taxpayers of Their Rights When Requested to
                                      Extend the Assessment Statute




                                       Results of Review

Some Case Files Did Not Have Documentation That Taxpayers Were
Advised of Their Rights Regarding Assessment Statute Extensions
In 23 (11.3 percent) of the 2039 tax returns sampled, case files did not contain sufficient
documentation to indicate whether taxpayers were advised of their rights before consenting to
extend the time to assess tax.10 There were 14 tax returns filed by single individuals, businesses,
or exempt organizations and 9 jointly filed individual tax returns.11 From our population of
3,265 tax return case files having statutes extended during the first 6 months of Calendar
Year 2006, we estimate 370 may not have contained adequate documentation to show taxpayers
were advised of their rights.12 We considered that IRS employees advised taxpayers of their
rights if any of the required documentation was found in the related case files.
The 23 exceptions occurred because employees did not follow required IRS documentation
procedures.
    •    In 19 cases, only the representative signed the revised Form 872 or SS-10 containing the
         taxpayer’s notification of rights.
    •    In 2 cases, the representatives signed outdated versions of the Form 872 or SS-10 without
         the notification of rights statement.
    •    In 2 cases, the taxpayers signed outdated consent forms that did not include the
         notification of rights statement.
In all 23 cases, there was no other evidence in the case files to document that the taxpayers were
advised of their rights when asked to extend the assessment statute.
The IRS has taken the position that notifying a taxpayer’s representative satisfies the requirement
to notify the taxpayer. In response to our Fiscal Year 2006 report, IRS management stated:



9
  This number is a unique count of tax returns. It is made up of single individuals, businesses, exempt organizations,
and taxpayers who filed a joint tax return.
10
   The Fiscal Year 2006 audit reported an error rate of 17.4 percent (35 of 201 tax returns) in this category.
Compared to this year’s error rate of 11.3 percent, there was a 35 percent improvement over last year’s results.
11
   See Appendix VI.
12
   Based on the estimated population of 3,265 tax return files, we are 95 percent confident that between 229 and
511 tax return files may not have contained adequate documentation that taxpayers were properly notified of their
assessment statute of limitation rights. See Appendix IV for additional details.
                                                                                                              Page 5
                       Fiscal Year 2007 Statutory Audit of Compliance With
                      Notifying Taxpayers of Their Rights When Requested to
                                  Extend the Assessment Statute



         . . . that the IRS generally will not bypass an authorized representative and
         contact a taxpayer directly regarding his liability. Indeed, reading 26 [Code of
         Federal Regulations] C.F.R. to suggest that notice to a taxpayer’s authorized
         representative is not effective notice to the taxpayer belies the intent of the
         provision. . . . we believe that providing notice to the taxpayer’s authorized
         representative constitutes compliance with our statutory requirements.
We believe the language of the statute, as well as the RRA 98 Congressional Committee report,
indicate the taxpayer must be notified directly. In the Committee Report, Congress emphasized
the need for taxpayers to be fully informed of their statute extension rights: “The Committee is
concerned that in some cases taxpayer[s] have not been fully aware of their rights to refuse to
extend the statute of limitations, and have felt that they had no choice but to agree to extend the
statute of limitations upon the request of the IRS.”
As a result, RRA 98 § 3461(b)(2)(B) emphasized that the IRS “. . . shall notify the taxpayer . . .”
of their rights regarding assessment statute extensions. This wording was carried over in
I.R.C. § 6501(c)(4)(B), which stated the “. . . Secretary shall notify the taxpayer of the taxpayer’s
right . . .” to refuse or limit extensions, and in Internal Revenue Manual section 25.6.22.3, which
stated “. . . notification must be made to the taxpayer . . . and the taxpayer’s representative unless
the taxpayer has placed restrictions on providing copies to the representative . . .”
The notification process is also explained in Practice Before the IRS and Power of Attorney
(Publication 947), in which the IRS informs the taxpayer:
         If you have a recognized representative, you and the representative will receive
         notices and other correspondence from the IRS . . . . . . the IRS will send your
         representative(s) a duplicate of all computer-generated correspondence that is
         sent to you. The IRS employee handling the case is responsible for ensuring that
         the original and any requested copies of each manually-generated
         correspondence are sent to you and your representative(s) in accordance with
         your authorization.
From the statute, regulations, and IRS procedures and publications, it is clear that the expectation
is for both the taxpayer and the taxpayer’s representative to receive notices, including
notification of the taxpayer’s rights when considering whether to extend the assessment statute.
Although a taxpayer may permit an authorized representative to receive notification from the
IRS in addition to the notification provided to the taxpayer, we found no statutory or regulatory
provisions allowing the taxpayer to designate that certain individuals receive notification instead
of the taxpayer.
Taxpayer rights could be negatively affected if the IRS does not comply with RRA 98 and follow
the regulations and IRS procedures requiring that taxpayers be directly notified of their rights to
refuse to extend the period of limitations or to request that any extension be limited to specific
issues or to a specific period of time. This year’s review continued to confirm IRS employees
                                                                                               Page 6
                             Fiscal Year 2007 Statutory Audit of Compliance With
                            Notifying Taxpayers of Their Rights When Requested to
                                        Extend the Assessment Statute



did not always document that taxpayers were so informed in all of the 23 reported cases.
Without the IRS meeting the documentation requirements when a statute extension is requested,
we could not determine whether the IRS protected the rights of these taxpayers. Because the IRS
maintains the same position expressed in the Fiscal Year 2006 report, we will not be making a
recommendation.

Employees did not always use the revised version of Form 872 or Form SS-10
Our Fiscal Year 2006 review found the IRS took effective actions to
integrate the revised consent forms into the assessment statute        The revised consent
extension process. However, IRS employees are still not                   form includes a
                                            13
consistently using the revised forms. In 23 (11.3 percent) of the      prominent   statement
                                                                      informing taxpayers of
203 tax returns in our sample, employees improperly used an              their assessment
outdated version of the consent form. The 203 cases in our sample          statute rights.
consisted of 186 tax returns with assessment statutes extended by
Form 872 and 17 tax returns with assessment statutes extended by Form SS-10. Of the
23 exceptions, 16 consents were made on an outdated Form 872 and 7 consents were made on
an outdated Form SS-10.
In 18 of the 23 cases, we were able to find other documentation to show taxpayers were properly
notified of their rights. However, in five cases, the consent form was the only documentation in
the case file regarding the assessment statute extension request. There was no other evidence
that demonstrated the taxpayers were notified of their rights. Taxpayers signed the outdated
consent forms in three of the five cases. The other consents were signed by the representatives.
For the three cases, if the revised consent form had been used, we would have considered that the
taxpayers were notified of their assessment statute extension rights. As a result, from our
population of 3,265 tax return case files having statutes extended during the first 6 months of
Calendar Year 2006, we estimate 370 cases for which employees did not use the revised consent
form when assessment statutes were extended.
The revised Forms 872 and SS-10 include a prominent statement informing taxpayers of their
rights regarding assessment statute extensions, as provided for in I.R.C. § 6501(c)(4)(B). By
signing the revised version of the consent form, the taxpayer attests “I am aware that I have the
right to refuse to sign this consent or to limit the extension to mutually agreed-upon issues and/or
period of time as set forth in I.R.C. § 6501(c)(4)(B).” The only time the revised consent form
would not be an effective vehicle to document that taxpayers were notified of their rights is when
the consent form is signed by the taxpayers’ representatives instead of the taxpayers.
By January 2006, the new consent forms should have been completely integrated into the
assessment extension consent process. However, we still found instances in which employees
used the outdated version of the form but this was not identified by the employees’ managers

13
     This number includes two tax returns for different tax periods covered by the same SS-10.
                                                                                                 Page 7
                           Fiscal Year 2007 Statutory Audit of Compliance With
                          Notifying Taxpayers of Their Rights When Requested to
                                      Extend the Assessment Statute



during their review process.14 Managers we interviewed stated that some employees used
previous versions of the consent forms that had been saved to their computer hard drives.
We made no recommendation because we have made prior recommendations to address these
issues.
         Management’s Response: The IRS continues to disagree that it has a responsibility
         to notify the taxpayer in addition to the taxpayer’s authorized representative when
         informing the parties of the taxpayer’s rights regarding the assessment statute extension.
         Therefore, the IRS disagrees with that portion of our outcome measures. The IRS
         believes (1) the law governing principals and agents provides that the authorized
         representative acts for the principal based on the authority vested in the agent by the
         principal should apply and (2) it has fulfilled its responsibility to the taxpayer by
         notifying the taxpayer’s representative.
         Office of Audit Comment: We continue to believe the IRS should send notification
         to the taxpayer even when the taxpayer has an authorized representative. The IRS’ own
         internal procedures require that notification must be made to the taxpayer and the
         taxpayer’s representative . In Publication 947, the IRS informs the taxpayer “If you have
         a recognized representative, you and the representative will receive notices and other
         correspondence from the IRS . . . . . . the IRS will send your representative(s) a duplicate
         of all computer-generated correspondence that is sent to you.” In addition, it states “The
         IRS employee handling the case is responsible for ensuring that the original and any
         requested copies of each manually-generated correspondence are sent to you and your
         representative(s) in accordance with your authorization.” While a taxpayer may permit
         an authorized representative to receive an IRS notification in addition to the notice
         required to be provided to the taxpayer, the taxpayer may not designate that the
         representative receive notification instead of the taxpayer. Consequently, we believe our
         outcome measure is valid.

Some Case Files Did Not Have Documentation That Taxpayers’
Representatives Were Provided the Required Copies of Notices
This year’s review continued to confirm IRS employees did not always document that the
taxpayers’ representatives were properly advised of the taxpayers’ rights regarding assessment
statute extensions. In our sample of 203 tax returns, 126 of the related case files contained
authorizations for third parties to represent the taxpayers before the IRS.


14
  The Large and Mid-Size Business Division, Small Business/Self-Employed Division, and Tax Exempt and
Government Entities Division extension requests are subject to a second review when signed by a group manager.
In the Office of Appeals, extension requests are prepared and signed by the appeals officer and are not subject to a
second review.
                                                                                                              Page 8
                          Fiscal Year 2007 Statutory Audit of Compliance With
                         Notifying Taxpayers of Their Rights When Requested to
                                     Extend the Assessment Statute



     •   In 112 case files, employees documented that the taxpayers’ representatives were given a
         copy of the written communications advising taxpayers of their rights regarding
         assessment statute extensions.
     •   In the remaining 14 cases (11.1 percent), there was no documentation to support that the
         taxpayers’ representatives were provided with the required notifications. We estimate
         from a population of 2,027 tax return files with authorized representatives that 225 case
         files were not adequately documented to show the taxpayers’ representatives were given
         copies of the written communications advising taxpayers of their rights regarding
         assessment statute extensions.15 These exceptions occurred because employees did not
         follow required IRS documentation procedures.
Once a power of attorney is filed and recognized, IRS procedures require that any
computer-generated or manually generated notice or other written communication (or copy)
required or permitted to be given to a taxpayer in any matter before the IRS must also be given,
unless restricted by the taxpayer, to the taxpayer’s representative. Without the required
documentation, we could not determine if the IRS properly notified the taxpayer representatives
in these 14 cases. Taxpayers may be adversely affected if the IRS does not follow the
requirements to notify both the taxpayers and their representatives of the taxpayers’ rights to
refuse to extend the period of limitations or to request that any extension be limited to specific
issues or to a specific period of time.

Recommendation
Recommendation 1: The Deputy Commissioner for Services and Enforcement should ensure
a memorandum is issued reminding IRS employees of their responsibility to document the
assessment statute extension notification of rights in every taxpayer case file when dealing with
taxpayer representatives.
         Management’s Response: IRS management agreed with this recommendation.
         They will issue a memorandum to remind examiners that they should provide both the
         taxpayer and the authorized representative copies of all notices and other written
         communications, unless the taxpayer specifies otherwise, and the case file is to be
         documented accordingly.




15
  Based on the estimated population of 2,027 tax return files, we are 95 percent confident that between 138 and
312 case files were not documented to show that taxpayers’ representatives were given copies of notices advising
taxpayers of their rights regarding assessment statute extensions. See Appendix IV for additional details.
                                                                                                           Page 9
                          Fiscal Year 2007 Statutory Audit of Compliance With
                         Notifying Taxpayers of Their Rights When Requested to
                                     Extend the Assessment Statute



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS was complying with
I.R.C. Section 6501(c)(4)(B), which requires the IRS to provide notice to taxpayers of their
rights to decline to extend the assessment statute of limitations or to request that any extension
be limited to specific issues or a specific period of time. To accomplish this objective, we:
I.       Determined whether taxpayers and their representatives were being advised of their rights
         when the IRS requested an extension of the assessment statute.
         A. Reviewed the Internal Revenue Manual, IRS memoranda, IRS Office of Chief
            Counsel Opinions, and Office of Appeals guidelines to determine whether there were
            any changes to existing policies and procedures for processing requests to extend the
            assessment statute of limitations since our last audit.
         B. Identified a population of 10,132 Business Master File1 and Individual Master File2
            closed examination cases with taxpayer consents to extend the assessment statute of
            limitations processed from January 1 through June 30, 2006. We validated the
            Business Master File and Individual Master File data by examining a random sample
            of 50 of the 10,132 records. The validation test results demonstrated the data were
            reliable and could be used to meet the objectives of this audit. We developed a
            statistical sampling plan using a 95 percent confidence level, an expected error rate of
            16 percent, and a precision of ±5 percent, which resulted in a sample size of 203 tax
            returns (closed cases). A statistical sample was taken because we wanted to estimate
            the number of tax returns in the population for which taxpayer rights were potentially
            affected.
         C. Randomly selected for review 800 tax returns from the category of closed cases that
            were likely to have statute extensions by taxpayer consent from the Examination
            function and Appeals function processes. We met our statistical sample size of
            203 cases after reviewing 630 tax returns and related case files and eliminating
            427 tax returns that either did not meet our criteria or for which we did not receive all
            the requested tax returns and related case files. The sample of 203 tax returns was
            comprised of 104 single individual, business, and exempt organization tax returns and



1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                           Page 10
                            Fiscal Year 2007 Statutory Audit of Compliance With
                           Notifying Taxpayers of Their Rights When Requested to
                                       Extend the Assessment Statute



               99 jointly filed individual tax returns. In addition, 126 of the 203 tax returns had
               declarations of representative made by the taxpayers.3
           D. Reviewed the 203 selected tax returns and related case files for the necessary
              documentation to verify whether taxpayers and their representatives, if applicable,
              were properly advised of their rights regarding assessment statute extensions and
              whether the revised consent form was used in the process.
           E. Discussed exceptions identified with the IRS business unit or function that requested
              the extension for concurrence or an explanation of why the IRS believed proper
              procedures were followed.




3
    See Appendix IV for details.
                                                                                                Page 11
                     Fiscal Year 2007 Statutory Audit of Compliance With
                    Notifying Taxpayers of Their Rights When Requested to
                                Extend the Assessment Statute



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Marybeth H. Schumann, Director
Bryce Kisler, Acting Director
James D. O’Hara, Audit Manager
Lynn Ross, Lead Auditor
Julia Tai, Senior Auditor
Andrea McDuffie, Auditor
Sylvia Sloan-Copeland, Auditor
Dorothy Richter, Information Technology Specialist




                                                                                   Page 12
                     Fiscal Year 2007 Statutory Audit of Compliance With
                    Notifying Taxpayers of Their Rights When Requested to
                                Extend the Assessment Statute



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Director, Communication and Liaison, Large and Mid-Size Business Division SE:LM:M:CL
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP:TP:SS




                                                                                    Page 13
                          Fiscal Year 2007 Statutory Audit of Compliance With
                         Notifying Taxpayers of Their Rights When Requested to
                                     Extend the Assessment Statute



                                                                                                Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. In addition, we have made prior
recommendations that continue to provide benefits. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 370 tax returns (225 single individual,
    business, or exempt organizations and 145 jointly filed tax returns) for which related case
    files did not contain adequate documentation to show the taxpayers were advised of their
    rights when assessment statutes were extended (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine the number of tax returns for which documentation was not adequate to support
that the taxpayers were advised of their rights when assessment statutes were extended, we
electronically identified 10,132 tax returns from the universe of Business Master File1 and
Individual Master File2 tax returns (processed from January 1 through June 30, 2006) for which
the assessment statute was extended. Because we could not electronically identify just those tax
returns for which the assessment statute was executed by consent, we requested 800 tax returns
for which the assessment statute was extended. We reviewed 630 of those tax returns to identify
the 203 tax returns used for our sample. Based on this population, we reviewed a statistically
valid sample of 203 tax returns and identified 23 (11.33 percent) for which the required
documentation was not found. We then had to estimate the size of the population for which the
assessment statute was executed by consent. This was accomplished by dividing the 203 tax
returns in our sample by total tax returns reviewed (203/630 = 32.22 percent) and then
multiplying this percentage by the population to estimate the number of tax returns for which the
assessment statute was executed by consent (10,132 * 32.22 percent = 3,265 tax returns). Using
the estimated population, we projected the reported error rate (3,265 tax returns * 11.33 percent




1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                           Page 14
                           Fiscal Year 2007 Statutory Audit of Compliance With
                          Notifying Taxpayers of Their Rights When Requested to
                                      Extend the Assessment Statute



= 370 [±141]3 tax returns). The projections were calculated using valid statistical formulas to
determine the variable range of total error returns.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 225 tax returns for which related case files
    were not documented to show the taxpayers’ representatives were given copies of the written
    communications advising taxpayers of their rights regarding assessment statute extensions
    (see page 8).

Methodology Used to Measure the Reported Benefit:
To determine the number of tax returns for which documentation was not adequate to support
that the taxpayers’ representatives were advised of the taxpayers’ rights, we used the same
sample of 203 tax returns and identified 126 case files that contained an authorization for a third
party to represent the taxpayer(s) before the IRS. In 14 (11.11 percent) of the 126 case files,
there was no documentation that employees provided the representatives with a copy of
the written communications provided to the taxpayers. We had to estimate the size of the
population of taxpayers that had authorized third-party representatives. This was accomplished
by dividing the number of tax returns in our sample with declarations of representation by the
total tax returns reviewed for which the assessment statute was executed by consent
(126/630 = 20 percent) and then multiplying this percentage by the population to estimate the
number of tax returns for which the assessment statute was executed by consent and had a
declaration of representation (10,132 * 20 percent = 2,027 tax returns). Using the estimated
population, we projected the reported error rate (2,027 tax returns * 11.11 percent = 225 [±87]4
tax returns). The projection was calculated using valid statistical formulas to determine the
variable range of total error returns.




3
  Calculated as follows: 3,265 tax returns * +4.32 percent (actual precision) = +141. The lower limit of the range is
370 - 141 = 229 tax returns. The upper limit of the range is 370 + 141 = 511 tax returns.
4
  Calculated as follows: 2,027 tax returns * +4.28 percent (actual precision) = +87. The lower limit of the range is
225 - 87 = 138 tax returns. The upper limit of the range is 225 + 87 = 312 tax returns.
                                                                                                            Page 15
                     Fiscal Year 2007 Statutory Audit of Compliance With
                    Notifying Taxpayers of Their Rights When Requested to
                                Extend the Assessment Statute



                                                                             Appendix V

                             Prior Audit Reports

The Treasury Inspector General for Tax Administration has previously performed seven
mandatory audits in this subject area. These audits were:
Fiscal Year 2006 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2006-40-163, dated
September 21, 2006).
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2005-40-112, dated July 2005).
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2004-40-108, dated June 2004).
Fiscal Year 2003 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2003-40-193, dated
September 2003).
Improved Documentation Is Needed to Ensure Taxpayers Are Informed of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2002-40-175, dated
September 2002).
Most Taxpayers Are Advised of Their Rights Before Signing an Agreement to Extend the
Assessment Statute of Limitations (Reference Number 2001-10-157, dated September 2001).
Information Provided to Taxpayers When Requesting Extensions of the Assessment Statute of
Limitations Can Be Improved (Reference Number 2000-10-142, dated September 2000).




                                                                                       Page 16
       Fiscal Year 2007 Statutory Audit of Compliance With
      Notifying Taxpayers of Their Rights When Requested to
                  Extend the Assessment Statute



                                                  Appendix VII

Management’s Response to the Draft Report




                                                         Page 19
 Fiscal Year 2007 Statutory Audit of Compliance With
Notifying Taxpayers of Their Rights When Requested to
            Extend the Assessment Statute




                                                   Page 20
